                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                     Inspection of
                                                 Embassy Algiers, Algeria

                                           Report Number ISP-I-12-06A, January 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                           1
Context                                                 2
Executive Direction                                     3
Policy and Program Implementation                       5
  Political/Economic Section                            5
  Trade Promotion                                       6
  Law Enforcement                                       6
  Foreign Assistance                                    6
  Public Diplomacy                                      7
  Consular Affairs                                     10
  Innovative Practice: New Resident Orientation        13
Resource Management                                    14
  Management Operations                                15
  Financial Management                                 15
  Human Resources                                      16
  Equal Employment Opportunity                         18
  General Services                                     18
  Facilities Management                                22
  Safety, Health, and Environmental Management         23
  Information Management and Information Security      24
Quality of Life                                        28
  Community Liaison Office                             28
  Employee Association                                 28
  Medical Unit                                         28
Management Controls                                    29
  Management Section                                   29
List of Recommendations                                31
List of Informal Recommendations                       35
Principal Officials                                    36
Abbreviations                                          37




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   • (b) (5)




   •   The management section provides inadequate services to its customers. Opaque
       processes, perceptions of undue influence and preferential treatment in hiring, and poor
       communication contribute to customer dissatisfaction with management services.

   •   Management controls are weak due to a lack of standard operating procedures in
       vulnerable areas and insufficient collaboration among units, particularly in supply chain
       management.

   •   Interagency coordination on counterterrorism, economic and trade issues, and foreign
       assistance is excellent. Although the United States and Algeria cooperate closely on only
       a narrow range of issues, related primarily to counterterrorism, the embassy uses
       assistance programs to promote broader common interests.

   •   The Ambassador recognizes the centrality of public diplomacy (PD) to achieving the
       embassy’s goals and supports PD programs and activities. Embassy Algiers has
       effectively engaged with young people, a priority target audience, and employs a diverse
       range of exchange programs and PD platforms.




The inspection took place in Washington, DC, between September 12 and October 13, 2011, and
in Algiers, Algeria, between October 15 and 30, 2011. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
         The Arab Spring that so profoundly changed Algeria’s neighborhood in northern Africa
this year has shaken but not unseated the authoritarian, bureaucratic, ageing leadership of the
continent’s largest country. The threat of revolutionary spillover through Algeria’s 1200-mile
border with Libya and Tunisia has spurred three-term President Abdelaziz Bouteflika to commit
to a cautious and incremental program of national reconciliation and political reform. It is still
uncertain whether these measures, combined with the government’s success in containing public
protests, will be sufficient to maintain the political status quo. Algeria’s 36 million people
struggle with a legacy of state planning, political stagnation, the social and economic toll of the
extremely violent civil war of the 1990s, high unemployment (particularly among the country’s
large population of educated young people), and low-level but persistent terrorist violence. The
relationship with the United States, historically limited by Algeria’s suspicions of the West, is
slowly developing; concerns over regional terrorism have made the Algerians more open to
cooperation in the areas of security and law enforcement. Algeria is the seventh-largest exporter
of oil to the United States and purchases more than $2 billion in U.S. goods and services
annually. Approximately 2,000 American citizens reside in the country.

        Algeria has taken tentative steps to address longstanding sources of popular discontent
with the regime. These include lifting the state of emergency that had been in force since 1992;
granting wage concessions; capping food prices; and allowing for the possibility of independent
news media. Algerian citizens express widespread disaffection and cynicism with the political
process, although the likelihood of violent unrest remains low. Algeria continues to cope with
terrorism and drug trafficking carried out by an indigenous group, al-Qaeda in the Islamic
Maghreb, which poses an active threat in Algeria and the region. The U.S. Government views
Algeria as a stable partner and has developed modest foreign assistance programs to support
counterterrorism and counternarcotics efforts, nurture Algeria’s struggling civil society, promote
regional stability, and develop and strengthen economic ties.

        The security situation for embassy personnel has improved over the past 5 years, but the
operating environment remains unusually taxing. The move to a secure new embassy compound
in 2007 and the limited return of family members marked milestones in the post’s transition to
relative normalcy after many years as one of the most dangerous assignments in the Foreign
Service. However, the lack of schooling options for the children of embassy employees,
persistent staffing gaps in American positions, continuing risk of terrorism, and relatively poor
local infrastructure create a stressful working environment for embassy personnel. Historically,
the embassy has struggled to fill staffing gaps for American positions and to provide adequate
internal controls oversight. The embassy receives relatively few bids for its key mid-level
positions, despite a 25 percent hardship differential and 15 percent danger pay.

       Embassy Algiers staffing includes employees from the Department and four other
Federal agencies. Total staffing consists of 61 direct-hire Americans and 358 locally employed
(LE) staff members. At the time of the inspection, the Department of Treasury and the Foreign
Commercial Service were preparing to close their resident offices by the end of 2011. The
embassy’s operating budgets totaled more than $18.9 million in FY 2011. In addition, U.S.
Government-provided foreign assistance programs totaled approximately $6.5 million in FY
2010.
                                                  2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The new Ambassador and deputy chief of mission face policy and management
challenges in a difficult environment. Prior to arrival, they defined a clear and appropriate
division of responsibilities, forging a bond of common purpose. Their sure assumption of
leadership won an enthusiastic welcome from the embassy community.

        The Ambassador made his top priorities clear to both American and LE staff members:
work with Algeria to combat terrorism, explore and exploit commercial opportunities, and help
build a democratic civil society. Employees are confident in their grasp of his vision and
expectations, which flow from the Mission Strategic and Resource Plan. The deputy chief of
mission, who arrived only a few weeks before the inspection, has brought her management
expertise to bear on longstanding issues in that area. Country team and section meetings are held
in a collegial, give-and-take atmosphere.

        The Ambassador previously served in six Middle East missions, including a tour in
Algiers. Section chiefs and agency heads expressed confidence in his grasp of their
responsibilities, potential, and resource constraints. They value his emphasis on close
interagency coordination and the need to eliminate duplicate efforts, as well as his openness to
advice and dissenting views. Mission elements collaborate effectively on developing Algerian
counterterrorism capabilities as well as programs in security cooperation, law enforcement, and
civil society. Relations with the regional combatant command have been strengthened in recent
months. The Ambassador’s energetic support for public outreach serves to sensitize the entire
mission to PD’s role in achieving Mission Strategic and Resource Plan goals.

        The security situation, though improved in recent years, still requires strict defensive
measures that affect morale at post by reducing mobility and impinging on community activities.
Both the Ambassador and deputy chief of mission carefully track security developments and
trends that may have implications for the safety of embassy employees. Looking ahead to the
possibility of a less restrictive security environment, the Ambassador has challenged the mission
to conceptualize what a “normal” embassy in Algiers would look like in 10 years and to draft a
roadmap identifying intermediate steps the embassy should take to prepare for that eventuality.

        The Algerian Government’s emphasis on rank, protocol, and formal communication
makes the conduct of official business cumbersome and labor intensive. The Ambassador is
working to reduce bottlenecks and hindrances to more expeditious interaction, including those
that exist within the mission. During the inspection, embassy clearance procedures were
streamlined. The Ambassador used the visit of the Assistant Secretary of State for Near Eastern
Affairs, which also took place during the inspection, to pry open the closed doors of senior
government leaders. The extraordinary persistence, flexibility, and patience needed to conduct
routine diplomatic business in Algeria were evident to the inspection team.

       The Ambassador is making intelligent use of the deputy chief of mission’s regional and
bureau experience to complement his own skills. He gave the deputy chief of mission a broad
mandate to address the embassy’s personnel and management challenges and to ameliorate
morale problems, including trust issues arising from the widespread perception that internal

                                           3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

decisionmaking processes lack transparency and efficiency. The deputy chief of mission’s
expertise on issues of procedure, regulation, and practice has had a valuable impact, and her
accessibility has improved front office communication with the rest of the mission.

        Since the last OIG inspection in 2007, the embassy has added 15 new positions under
National Security Decision Directive-38 procedures. Generally, these were to compensate for the
reductions during the Algerian civil strife of the previous decade. The embassy has objected to
recent decisions by the Treasury Department and the Department of Commerce to close their
resident offices.

        Recruitment has been a chronic problem for the embassy, which operates with a deficit of
mid-level personnel. Many positions, including senior ones, are filled by temporary duty
employees, officers on stretch assignments, or Civil Service personnel on excursion tours. The
executive team expressed its commitment to a vigorous recruitment effort aimed at getting the
right people at the right time into the right positions.

       OIG did not find any Equal Employment Opportunity (EEO) issues at post.

Locally Employed Staff

        The front office is sensitive to the special requirements of LE staff and entry-level
officers (ELO). (b) (5)
              At the time of the inspection, the embassy lacked an established mechanism for
bringing LE staff concerns to the attention of senior management, as the LE staff association had
been disbanded some years ago. A so-called “Ambassador’s Council,” composed of section
representatives appointed by the previous Ambassador, lacks staff buy-in. The Ambassador has
urged LE staff members to organize themselves and determine how they want to advise and
consult with mission leadership.

Recommendation 1: Embassy Algiers should abolish the Ambassador’s Council and implement
a plan to establish a local employee association. (Action: Embassy Algiers)

Entry-Level Officer Mentoring

        The embassy does not have a formal mentoring and professional development program
for ELOs, as required by Department guidance (2010 State 120467). The large complement of
untenured, first- or second-tour officers and specialists—13 employees, representing more than a
third of the Department contingent —combined with the paucity of mid-level professionals, puts
a heavy burden on the mission’s few senior officers. In some sections, adequate supervision,
training, and mentoring are also deficient. (b) (5)


Recommendation 2: Embassy Algiers should implement a mentoring and professional
development program for entry-level officers and specialists. (Action: Embassy Algiers)




                                          4
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic Section

        The embassy’s combined political/economic section is stretched thin because of long-
term staffing gaps, notably in the section chief position. Headed on an acting basis by an FS-02
economic officer, the section’s complement includes five direct-hire positions and four LE staff
members. When fully staffed, the section has the manpower to accomplish mission advocacy and
reporting goals. The absence of an experienced section head, however, has resulted in a lack of
leadership and strategic direction.

        Washington consumers cited examples of strong and relevant reporting, particularly on
issues such as Algeria’s reaction to the Arab Spring, economic entrepreneurship, and Algerian
political-social developments. However, reporting often reached consumers too late to be of
value. Impediments in the embassy’s clearance procedures were largely to blame for the delays.
The new front office appreciates the need for timely reporting and has given the section chief
increased authority to turn reporting around faster.

         The host government strictly controls access to the official and private contacts that
normally constitute sources for informed, in-depth political/economic reporting. This restriction
is reflected in the limited content of some of the embassy’s reporting, which is frequently based
on press reports or government statements. Inspectors advised section officers on ways to
explore other opportunities to enhance their understanding of issues and developments, including
more targeted use of representational funds and joint projects with other embassy sections and
agencies.

        Local and American staffing vacancies have required LE staff members to perform
drafting duties beyond their level of training. In addition, portfolio responsibilities are not clearly
distributed among American and LE staff. The inspectors were impressed with the capabilities
and contributions of LE staff members and believe their talents could be better used. All staff
would benefit from clearer formal divisions of responsibility.

Recommendation 3: Embassy Algiers should define portfolio responsibilities in the
political/economic section for each American and locally employed staff member and include
these responsibilities in their work requirements statements. (Action: Embassy Algiers)

        In reviewing the section’s expenses, the inspection team was struck by the number of
newspapers and magazine subscriptions it continues to receive, even though many publications
are available online.

       Informal Recommendation 1: Embassy Algiers should eliminate political/economic
       section subscriptions that can be replaced with online resources.




                                            5
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Trade Promotion

         Algeria imports more than $2 billion in goods and services from American companies.
The Foreign Agricultural Service maintains a resident office to promote commodity exports,
chiefly wheat, and seeks to overcome trade barriers to American imports in Algeria’s fragmented
retail food market. Because of budget retrenchments, the Foreign Commercial Service plans to
close its resident office by the end of 2011. The Ambassador has voiced his opposition to this
closure and asked the Department of Commerce to review the decision. In view of this expected
action, it is possible that the political/economic section will have to assume responsibility for
commercial advocacy on behalf of U.S. exporters; however, the section currently lacks the staff
to perform this function.

Recommendation 4: Embassy Algiers should document the need for a commercial specialist
position in the economic section in its next strategic planning request. (Action: Embassy Algiers)

Law Enforcement

        The Federal Bureau of Investigation operates a three-person office that supports U.S.-
based criminal investigations. In addition, the Department of Justice’s International Criminal
Investigative Training Action Program provides support for police forensics laboratories, police
training, and border control activities. At the time of the inspection, the embassy was
establishing a formal law enforcement working group to coordinate activities and information
sharing among relevant agencies.

Foreign Assistance

        Embassy Algiers oversees a modest but growing foreign assistance portfolio that totaled
more than $6.5 million in FY 2010. Foreign assistance programs provide technical assistance to
support cooperation on counterterrorism and promote civil society institutions. An economic
officer coordinates foreign assistance program oversight in the mission.

        The embassy also manages Middle East Partnership Initiative (MEPI) programs. The
political/economic section and the public affairs section (PAS) oversee local MEPI programs.
PAS also works directly with the MEPI-funded Access program of English instruction. The local
grants target civil society organizations. In addition, there were five active local grants with a
total value of $300,000, and several others were under development. The regional MEPI office in
Tunis processes local grants and disburses the money. The embassy tracks progress and
compliance.

       The Tunis regional office also administers a number of multicountry grants that include
Algerian organizations. The embassy generally finds the Algerian recipients of MEPI grants
responsive to their requests for public recognition of the U.S. Government role.

      In 2011, the embassy received $710,000 in development assistance funds from the U.S.
Agency for International Development regional mission in Rabat. The Department of Defense
conducts several assistance programs, including Expanded International Military Education and

                                          6
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Training, humanitarian assistance, border and maritime security, and counterterrorism training, at
a total cost of approximately $2 million.

        The political/economic section also monitors the activities of the UN High Commissioner
for Refugees and other international organizations that support refugees in the Tindouf refugee
settlement. Algeria is on the Trafficking in Persons Tier 3 List but has received a national
interests waiver that allows it to continue to receive foreign assistance.

Public Diplomacy

         Algeria presents a challenging PD environment. Security constraints limit travel,
especially outside the capital, complicating embassy efforts to develop relationships with
Mission Strategic and Resource Plan target groups, especially women and young people. The
Algerian Government exerts preponderant influence in all the sectors of society with which PD
officers typically engage, including the media, schools and universities, and cultural and
intellectual circles. The government requires a diplomatic note to carry out even routine PD
activities and programs. This requirement often delays visa issuance to Americans participating
in embassy-sponsored programs and has prevented Algerian nominees from going to the United
States on exchange programs by denying them permission to travel.

        A capable public affairs officer with previous PD experience leads 2 American officers
and 10 LE staff members in a section where all employees share a clear understanding of
Mission Strategic and Resource Plan priorities. At the time of the inspection, all three American
officers had recently arrived. Despite the logistical challenges, the section is carrying out a
diverse range of programs and activities.

        Although new at post, the American officers have begun developing relationships with
Algerian contacts. OIG believes that the time and effort put into establishing these relationships
represent a vital investment. Deepening substantive relationships with Algerian interlocutors will
allow the American officers to understand and analyze their sectors, enabling them to implement
the Mission Strategic and Resource Plan PD strategy effectively. The public affairs officer
understands the challenge and the need to lead her staff in a multiphased effort to expand
contacts with Algerians, analyze and report on the PD sectors, and allocate resources
strategically.

        LE staff members are competent in their specialties and familiar with the range of
available programs and resources. In some cases, frictions among the local employees, including
an unwillingness to communicate with one another, diminish their effectiveness. The public
affairs officer is aware of the problem and is taking appropriate steps to address it.

Educational and Cultural Affairs

        The cultural affairs officer arrived with solid experience in directing a cultural program
of similar size and scope, including responsibility for the Fulbright program. In general, LE staff
members are efficient and knowledgeable in their areas of responsibility and actively engage in
program work.

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        OIG identified shortcomings in the nominations process for the International Visitor
Leadership Program that undermine the quality of nominees selected for the program as well as
their professional experience in the United States. For example, the embassy does not regularly
offer visitor-specific programming suggestions that the Bureau of Educational and Cultural
Affairs needs to develop appropriate itineraries for participants. American officers do not
consistently participate in the pre- or post-trip briefing of nominees, nor do they write the
justification that accompanies the nomination, which is instead prepared by a local employee.
These deficiencies jeopardize the success and impact of this important program.

Recommendation 5: Embassy Algiers should implement a plan to assign specific
responsibilities to officers who nominate Algerians for the International Visitor Leadership
Program. (Action: Embassy Algiers)

        There is good coordination between the local employees handling the International
Visitor Leadership Program and alumni affairs. PAS does a creditable job promoting State
Alumni, the Department’s Web site for participants in Bureau of Educational and Cultural
Affairs-sponsored exchanges. Establishing an alumni organization in Algeria would be difficult,
given the government’s suspicion of organizations and activities.

       The embassy has traditionally worked with the host government on cultural and speaker
programs. The host government provides suitable venues at no cost, which offers considerable
savings. At the same time, this arrangement gives the host government undue influence over
embassy programs. The public affairs officer is reviewing this program model with the aim of
finding other venues that would give the embassy autonomy over its program agenda. OIG
supports this effort.

        PAS oversees Access programs at 13 schools. Typically funded by the Bureau of
Educational and Cultural Affairs, these programs provide young people in predominantly
Muslim countries with instruction in the English language and in American culture and values.
Because Access targets nonelites, it provides a useful means of reaching a priority Mission
Strategic and Resource Plan audience. A reduction in funding means that the embassy will need
to eliminate the program in five schools. PAS is in the process of choosing which ones, working
with objective criteria that include responsiveness of school management and geographic
location of schools. At the same time, PAS is exploring other funding options to make up the
shortfall.

       Few Algerians study in the United States due to costs and cultural factors, including the
influence of the French educational system. The embassy hopes to increase the number of
students who seek higher education in the United States. At the time of the inspection, a regional
educational advising coordinator had not visited in 2 years. The coordinator’s counsel is essential
to meeting the embassy’s goal of increasing study in the United States.

Recommendation 6: The Bureau of Educational and Cultural Affairs, in coordination with
Embassy Algiers, should schedule a regional educational advising coordinator visit to Algeria.
(Action: ECA, in coordination with Embassy Algiers)


                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Information and Media Affairs

        The first-tour information officer brings valuable work experience to the job. She is
active in the Ambassador’s monthly media forum. Newspapers remain the dominant medium in
Algeria, and PAS devotes considerable resources to monitoring them, as well as to tracking
radio, television, and the Web. A local employee from the information unit provides the
Ambassador and senior officers with a daily oral brief. The section also produces a
comprehensive written daily media digest that the Ambassador and Washington readers value.
The digest requires a significant investment of time by a senior local employee and by the
information officer responsible for editing it. A consequent lack of time for contact work
represents a hidden cost of the digest. Although journalists come to the embassy for press events
and email facilitates an exchange of information, neither of these interactions is an adequate
substitute for developing relationships with reporters and editors, which takes time, outreach, and
a strategic approach.

       Informal Recommendation 2: Embassy Algiers should streamline production
       procedures and the scope of coverage of its daily media digest product.

        At the time of the inspection, the embassy had no written media policy articulating
spokesperson roles and responsibilities or procedures for dealing with the press. Because the
front office and the public affairs officer had already identified the need for one, and PAS was in
the process of developing a document that would serve as the basis for the policy, OIG did not
leave a recommendation on the subject.

       Internet usage is growing but still limited in Algeria. Facebook is the dominant social
medium. The embassy successfully uses its Web page and social media to disseminate and
amplify policy information, promote programs, and facilitate contact with younger Algerians.
PAS Algiers places appropriate emphasis on social media and allocates resources to locally
relevant social media.

        In recent years, PAS Algiers has hosted very few speakers from the Bureau of
International Information Programs. Given the network of three American Corners around the
country, the embassy has an ideal venue for speakers. OIG discussed with the public affairs
officer the importance of communicating the section’s needs and enlisting the assistance of the
Bureau of Near Eastern Affairs’ Office of Press and Public Diplomacy to bring speakers to the
embassy.

Public Diplomacy Platforms

         The embassy’s Information Resource Center reopened in June 2011, following a several-
year hiatus. An information resource officer visited in April to train the interim director and
advise on setting up an Information Resource Center. At the time of the inspection, the embassy
was in the process of hiring permanent center staff. In the meantime, PAS staff members had
been temporarily reassigned to work in the Information Resource Center, a necessary step given
the initial enthusiastic response from Algerian contacts. Following advertisement of the
resources at a major book fair, 25 to 30 new people a day were visiting the center through the
course of the inspection.
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        PAS oversees operations in American Corners in three Algerian cities and has tentatively
identified a location for a fourth Corner in the capital. OIG believes that, given the Mission
Strategic and Resource Plan priority of reaching young people and women and the difficulty of
travel in country, the American Corners provide an invaluable platform from which to engage
Algerians. A local staff member dedicates most of her time to supporting the American Corners.
PAS provided the equipment to conduct digital video conferences to one American Corner and
had ordered equipment for the others. American Corners directors, who are employees of the
hosting organization, also recruit local speakers.

Grants and Administrative Matters

       OIG’s review found missing or inadequate documentation in some grants files. PAS does
not consistently use the Federal financial report form (SF-425), and some grants files do not
include required information and paperwork. Missing documentation included evidence that
embassy personnel had conducted checks of the Excluded Parties List System, a requirement of
Grants Policy Directive 19. Nonuse of required grants forms is also contrary to Grants Policy
Directive 3, which mandates use of certain forms in administering Federal assistance programs.

Recommendation 7: Embassy Algiers should implement procedures for the accurate and
complete documentation of required information in public grants files. (Action: Embassy
Algiers)

        PAS Algiers does not use a software application to keep track of its professional contacts.
Although not a Department requirement, using such an application is far more efficient than
relying on manual processes and individual employee contacts to support PAS outreach. The
protocol office and the political section use a Department standard application for contact
management, which PAS might also use. The effect of not using contact management software is
diminished operational effectiveness in conducting outreach and programming.

Recommendation 8: Embassy Algiers, in coordination with the Bureau of Near Eastern Affairs,
should obtain and use contact management software that meets the needs of the public affairs
section. (Action: Embassy Algiers, in coordination with NEA)

Consular Affairs

        The consular section is small and generally well managed and provides the full range of
consular services. An experienced officer on a temporary duty assignment heads the section.
Local staff members are well trained and operate as a cohesive team. However, long gaps in
permanent officer staffing have begun to erode strict adherence to good management practices.
When the section’s second American officer arrived at the end of the inspection, procedures
began to return to normal. The section has ample work space and sufficient numbers of interview
windows, although some are not in use because of nonfunctioning audio equipment. Although
there are no specific consular goals in the FY 2012 Mission Strategic and Resource Plan, the
introductory narrative notes the importance of the consular section to mission operations. The
section works well with other elements of the mission, including the regional security office and
PAS.

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


American Citizens Services

        The consular section provides efficient services to U.S. citizens. However, the security
situation in Algeria makes it difficult for officers to travel and provide emergency services to
U.S. citizens outside Algiers. The embassy maintains up-to-date guidance to the public about
security conditions and the limited ability of consular personnel to respond to emergencies
outside the capital. The section provides routine services for American citizens through an
Internet-based appointment system, with appropriate exceptions for emergency cases. There are
approximately 2,000 U.S. citizens registered with the embassy, who are assigned to a warden
zone as part of the section’s robust warden system. Although U.S. citizens are encouraged to use
the Internet-based registration system, the section also accepts written registrations.

Consular Management

        Consular management and local staff observe consular leadership tenets. All LE staff
members have been cross-trained in at least two of the consular functional areas. The section is
sufficiently staffed to meet its visa and American citizens service workload. Standard operating
procedures for all routine functions are in use and available to everyone in the section. The
deputy chief of mission reviews the adjudications of the consular section chief.

Records Management

        The consular section properly secures accountable consular items and reconciles
inventories on a regular basis. The accountable consular officer and alternate have been
designated in writing. However, immigrant visa records and some other records containing
personally identifiable information are not being properly secured after hours. Personally
identifiable information pertaining to American citizens is protected under the Privacy Act of
1974 and must be securely safeguarded. (b) (5)




Recommendation 9: (b) (5)


Visas Viper

       The Visas Viper program is an interagency initiative to make information available to
consular visa sections about known and suspected terrorists. The deputy chief of mission chairs
the embassy’s Visas Viper committee, which meets monthly. All required representatives attend
meetings, and the consular section submits monthly reporting cables in a timely manner.

Nonimmigrant Visas

       The consular section processes more than 7,000 nonimmigrant visas a year via an online
appointment system. Because of a 7-month staffing gap in an officer position, the embassy was
                                         11
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

forced to drastically reduce the number of visa appointment slots. As a result, the wait time for
nonimmigrant visa appointments increased to more than 60 days. The acting consular section
chief also limited the number of appointment slots that would be available after his departure so
as not to overburden the incoming first-tour officer. During the inspection and for several months
prior to it, the consular section was scheduling appointments every work day and was adding
special appointments 1 day every other weekend to accommodate legitimate business travelers.
As a result, all available appointment slots have been filled and requests for special consideration
and advance appointments create additional work for the staff.

        To process all nonimmigrant visa applicants as quickly as possible, the consular section
reviews applicant information and collects the required biometric finger scans before applicants
pay the processing fee. Although consular staff are careful to confirm that applicants have
sufficient funds to cover the visa fee, regulations in 7 FAH-1 H-743.1 a. and 7 FAH-1 H-751 b.
require payment of the fee prior to other processing steps.

Recommendation 10: Embassy Algiers should update nonimmigrant visa procedures so that
consular staff collects the machine readable visa fee before processing a visa case. (Action:
Embassy Algiers)

        The current method of scheduling nonimmigrant visas in the morning and other services
in the afternoon limits the number of appointments the section can provide and sometimes
creates congestion in the waiting room. Establishing separate days for nonimmigrant visas will
allow the consular section to schedule more appointments per day, simplify end-of-day
procedures, and facilitate continued staff cross-training.

       Informal Recommendation 3: Embassy Algiers should alternate appointment days for
       nonimmigrant and immigrant visas.

Referral Program

        The consular section is properly implementing the worldwide referral policy. Referring
officers receive briefings on the visa referral policy and sign compliance agreements.

Immigrant Visas

        The section conducts immigrant and diversity visa interviews on a daily basis. Diversity
visas, a category of limited immigrant visa available through a lottery system, make up more
than 70 percent of the total immigrant visa workload. The section’s overall immigrant visa
workload has increased steadily over the past few years and is likely to continue to do so as the
Algerian community in the United States grows.




                                          12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Innovative Practice: New Resident Orientation


Innovative Practice: New Resident Orientation

Issue: Many recipients of immigrant visas, particularly diversity visas, have never traveled
outside Algeria and do not know what to expect when they arrive in the United States for the first
time.

Response: The consular section in Algiers offers immigrant visa and diversity visa recipients
the opportunity to pick up their visa packets in person on one of two orientation days each
month. The sessions are strictly voluntary; those who choose not to attend receive their packets
by courier. The sessions use a PowerPoint presentation based on the U.S. Citizenship and
Immigration Services pamphlet, Welcome to the United States, to cover details such as what to
expect at the airport, resources available in the United States, and cultural norms.

Result: The program has been well received by the local population. Approximately 20 to 30
people attend each session.




                                         13
                             SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


Resource Management
                                           U.S.                             Foreign                      Total
                                                           U.S. Local-                     Total
              Agency                      Direct-                           National                    Funding
                                                           Hire Staff                      Staff
                                         Hire Staff                          Staff                      FY 2011
 Department of State
 Diplomatic and Consular                            27                  1         18          46        $1,755,307
 Programs
 Machine Readable Visa                               2                  -          3           5           $57,330
 ICASS                                               6                 12        268         286        $7,055,500
 Public Diplomacy                                    3                  1         10          14          $733,914
 Diplomatic Security                                 3                  -         71          74        $1,309,351
 Marine Security                                     7                  -          3          10           $60,384
 Representation                                      -                  -          0           0           $27,650
 OBO                                                 1                  -          0           1        $3,835,882
 Department of Agriculture
 Foreign Agricultural Service                        1                 -           2           3         $265,913
 Department of Defense
 Defense Attaché Office                              4                 1           2           7         $453,370
 Office of Security                                  2                 -           2           4         $236,000
 Cooperation
 Department of Justice
 Federal Bureau of                                   3                 -           1           4         $239,286
 Investigation
 Department of Justice –                             1                 -           1           2        $2,200,000
 ICITAP
 Department of Treasury                              1                 -           0           1         $629,848
 Other Foreign Assistance*
 Democracy Assistance                                 -                 -              -           -     $710,000
 Nonproliferation,                                                                                       $775,000
 Antiterrorism, Disarmament,
 and Related Programs
 International Military                               -                 -              -           -     $950,000
 Education and Training
 Food for Peace                                      -                  -          -           -        $6,213,000
 Totals                                             61                 15        381         457       $27,507,735
Source: Embassy Algiers, FY 2012 Congressional Budget Justification.
*FY 2010 totals.




                                                 14
                                     SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Operations

        Embassy Algiers operates in an unusually difficult and dangerous environment that
requires strong American management skills and expertise. The current management section has
neither the staff nor the experienced leadership to operate effectively. The professional
credentials of the current management team do not constitute a recipe for success: a management
officer who had never served overseas previously; U.S. direct-hire unit chiefs who, with one
exception, were serving in their functional areas for the first time; and LE staff members with
mixed levels of proficiencies and who are still recovering from malfeasance cases in the recent
past. Many of the findings in this inspection report mirror those of the last two inspections in
2001 and 2006. The former deputy chief of mission, who departed immediately prior to the OIG
inspection, provided neither guidance nor sufficient mentoring to the management section. The
absence of adequate front office support contributed to protracted debates and bureaucratic
logjams at the working level. The Bureau of Near Eastern Affairs characterized the management
section’s operations in more positive terms than OIG found to be warranted.

        OIG questionnaires reflect nearly universal dissatisfaction with the management section
and the services it provides. OIG noted numerous deficiencies in processes and procedures. Lack
of transparency and trust in several management units exacerbates this problem.

        The recent arrival of a new deputy chief of mission with management credentials has
created significant optimism within the section. Many embassy employees noted the positive
change in atmosphere and the deputy chief of mission’s direct involvement in resolving issues
that caused particular morale problems. The executive office is aware that rebuilding trust,
confidence, expertise, processes, customer service, and leadership in the management section
will be a long-term undertaking that requires intense supervision.

Financial Management

         Unlike other management units, the financial management office functions well. Led by a
first-tour financial specialist with extensive experience in private industry, the office received
good marks from embassy customers in OIG’s survey. Accounting and vouchering processes
function efficiently. Approximately 40 percent of embassy vouchers are processed offshore by
the Bureau of Resource Management’s Post Support Unit. The Class B cashier has established
appropriate internal controls (b) (6)
            The cashier has satisfactorily addressed all outstanding recommendations from a June
2011 cashier monitor report. The office effectively manages the International Cooperative
Administrative Support Services (ICASS) platform but needs to address two minor issues. First,
one agency that should be represented on the ICASS council has been omitted. Second, the
council did not provide an annual service provider performance assessment this year, as required
by 6 FAH-5 H-222.3-4(9).

       Informal Recommendation 4: Embassy Algiers should include all relevant agencies on
       its International Cooperative Administrative Support Services council and budget
       committee.


                                         15
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 5: Embassy Algiers should complete the required annual
       International Cooperative Administrative Support Services service provider performance
       assessment.

        The Class B cashier deposits consular fee collections into a local bank account when the
amount on hand exceeds the authorized advance. The local bank requires confirmation that funds
are tax exempt in order to transfer them from the local account to the U.S. Disbursing Office
account. The embassy provides potentially sensitive details about the number and type of
consular services rendered as part of the bank deposit process. The embassy is in the process of
negotiating a new banking agreement, which provides an opportunity to revisit this practice.

Recommendation 11: Embassy Algiers should cease the practice of providing a detailed list of
consular services to the local bank. (Action: Embassy Algiers)

        The embassy makes most payments by cash or check, including salary payments to LE
staff. Salary checks for LE staff normally are received from Bangkok every other Sunday.
However, the checks are distributed over a 3-day period, apparently to accommodate a request
from the local bank. This practice is inefficient and unnecessary.

Recommendation 12: Embassy Algiers should distribute locally employed staff paychecks on
the same day they are received. (Action: Embassy Algiers)

       The financial management office is in the process of transferring the embassy’s bank
account to a new institution. Once this has been completed, Embassy Algiers will initiate a pilot
program to deposit a limited number of LE staff salary checks by electronic funds transfer.
Should this plan succeed, the embassy will expand the pilot program to include all salary
payments. It is standard practice at most overseas missions, even those in the developing world,
to make the majority of payments by electronic funds transfer. (b) (5)


Recommendation 13: Embassy Algiers should implement a policy to make payments by
electronic funds transfer whenever possible. (Action: Embassy Algiers)

Human Resources

        The human resources section suffers from the perception that it does not administer
American and LE staff hiring and employment policies fairly and in accordance with regulations.
Suspicion and mistrust have damaged relations between the human resources office and other
elements of the mission. A perceived lack of transparency permeates three basic functions of the
office: LE staff hiring, LE staff position classification, and eligible family member hiring. The
office’s below-average scores on OIG questionnaires reflect the seriousness of the problem.

       The recent assignment of a full-time human resources officer has benefited the embassy
as a whole; however, that the employee is a first-tour officer and learning on the job places her at
a disadvantage in managing the office. Local staff and an American family member are
knowledgeable and well trained in human resources procedures. However, friction among human
resources staff members contributes to diminished office performance.
                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 14: Embassy Algiers should schedule a team-building exercise for its human
resources staff. (Action: Embassy Algiers)

         The most troubling aspect of the working environment in the mission is the perception
that hiring is not administered fairly. OIG reviewed hiring policies and procedures and found
them to be generally consistent with Department personnel regulations. Despite the existence of
numerous policies and procedures relating to the proper method of hiring LE staff, and
notwithstanding the fact that American employees are involved at all levels of the hiring process,
local employees still believe that the hiring process is unfair. One problem is that some important
documents, such as the human resources handbook for LE staff, have never been translated into
French. This oversight contributes to a lack of understanding about human resources policies.
(b) (5)




Recommendation 15: Embassy Algiers should translate the human resources handbook for
locally employed staff; the local compensation, leave, and benefits plan; and other hiring
guidance into French and make them available to all local employees. (Action: Embassy Algiers)

Recommendation 16: Embassy Algiers should implement a plan to brief all locally employed
staff on the hiring policy as described in the human resources handbook. (Action: Embassy
Algiers)

        The U.S. citizen eligible family member hiring process also generates complaints of
favoritism and lack of fairness. The embassy’s hiring practices do not conform to Department
recruitment policy guidelines contained in the Local Employee Recruitment Policy Guidebook.
For example, the embassy has not constituted a post employment committee to review the
qualifications of U.S. citizen eligible family members and U.S. veterans who apply for embassy
positions. The committee must document its deliberations and prepare a formal memorandum to
the chief of mission, recommending appointments for all U.S. citizen eligible family members
and veterans who are hired at the mission. The human resources office has drafted, but not yet
completed, a family member appointment handbook and other implementing guidance for hiring
eligible family members. In the absence of a properly functional hiring process, the embassy
cannot address concerns that eligible family member hiring is not transparent and free of
improper influence.

Recommendation 17: Embassy Algiers should complete and issue the family member
appointment handbook. (Action: Embassy Algiers)

Recommendation 18: Embassy Algiers should conduct a group meeting with all eligible family
members to discuss the hiring and employment process as it pertains to them. (Action: Embassy
Algiers)

       In October 2011, the Bureau of Near Eastern Affairs concluded a memorandum of
understanding to transfer LE position classification responsibilities to the Frankfurt Regional
Support Center in order to standardize the position classification function and thereby alleviate
employee concerns about the equity of the process.
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 19: Embassy Algiers, in coordination with the Bureau of European and
Eurasian Affairs, should request that the Frankfurt Regional Support Center begin conducting
reviews of locally employed staff position classifications and descriptions. (Action: Embassy
Algiers, in coordination with EUR)

       Embassy Algiers has an adequate LE staff training policy and tracks training of its
employees. However, there is no consolidated plan to implement this policy based on priorities
and availability of funding, which diminishes the effectiveness of the training the embassy
provides.

Recommendation 20: Embassy Algiers should implement a consolidated training plan for its
locally employed staff. (Action: Embassy Algiers)

       Embassy Algiers has a post orientation program for incoming LE staff. The sessions
cover administrative issues but do not give new staff members important information regarding
mission operations.

       Informal Recommendation 6: Embassy Algiers should broaden its locally employed
       staff orientation program to include discussion of overall mission operations.

        The inspection team reviewed each language-designated position and found that the
designations accurately reflect requirements. French or Arabic language skills remain essential in
this operating environment for many embassy positions.

Equal Employment Opportunity

       Embassy Algiers has designated two EEO counselors and two LE staff EEO liaisons.
Both EEO counselors have attended the Department’s 4-day training course within the past year.
Notices are posted in several common locations throughout the embassy.

         The local employee EEO liaisons have not received training and have not met with their
American counterparts. A cable announcing EEO training for both EEO counselors and LE staff
EEO liaisons arrived during the course of the inspection. The embassy authorized one of the
local liaisons to attend and followed guidance for enrolling in the course. However, the Office of
Civil Rights informed the nominated employee that enrollment was not possible.

Recommendation 21: The Office of Civil Rights should clarify its instructions concerning
Equal Employment Opportunity training procedures for locally employed staff. (Action: S/OCR)

       Informal Recommendation 7: Embassy Algiers should establish a schedule of regular
       meetings between its Equal Employment Opportunity counselor and locally employed
       liaisons.

General Services

       The general services office functions at a basic level. Key cost centers, such as customs
and shipping, procurement, and housing, earned low scores and negative comments on OIG
                                         18
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

questionnaires. The unit has been preoccupied with two issues: the termination on short notice of
leases for 24 apartments, and lengthy delays in clearing shipments through local customs. The
two issues have consumed considerable staff time and energy. Lack of staff experience and
professional knowledge exacerbates the situation. Nevertheless, the general services staff has
moved up the learning curve and shown improvement.

       Areas of responsibility for the supervisory and assistant general services officers are ill-
defined. One officer is responsible for housing, one is responsible for customs, and both share
the remaining areas. Clearer lines of authority are necessary to facilitate accountability in each
functional area.

Recommendation 22: Embassy Algiers should assign direct responsibilities for components of
the general services portfolio to the supervisory general services officer and the assistant general
services officer and incorporate these responsibilities into their work requirements statements.
(Action: Embassy Algiers)

Procurement

       The embassy has deployed the Department’s standard logistics application, the Integrated
Logistics Management System, to the procurement process. General services staff uses the
system to prepare purchase orders, blanket purchase agreements, and petty cash purchases.
Expanded use and visibility of the system, which could enhance management controls, is
discussed in the Management Controls section of this report.

        The procurement unit has only a handful of active contracts; the majority predates the
hiring of the current unit supervisor. An OIG inspector examined four formal contracts and
found them lacking in essential documentation: three did not include the mandatory trafficking in
persons Federal Acquisition Regulation clause 52.222-50; two did not contain current
contracting officer representative letters; and two did not fully document competition. None was
well organized and conformed to guidance provided in chapter 7 of the Department’s Overseas
Contracting and Simplified Acquisitions Guidebook.

Recommendation 23: Embassy Algiers should update its contracts and contract files so that
they are well organized and contain all documentation and clauses required by the Federal
Acquisition Regulation and Department of State regulations. (Action: Embassy Algiers)

Property Management

        The property management unit is working to improve its physical infrastructure and
operational processes based on guidance from a September 2011 assistance visit by an Office of
Logistics Management employee. This visit documented, and the OIG inspection confirmed, a
number of deficiencies in warehouse life safety and internal controls that warrant priority
attention.

        The current warehouse configuration has exits that traverse warehouse space, lacks
separation between the warehouse area and workshops and maintenance storage, and allows

                                          19
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

uncontrolled access to the receiving area. The absence of adequate internal controls creates
vulnerability to unauthorized access and theft.

Recommendation 24: Embassy Algiers should alter the configuration of the warehouse to limit
access to the receiving and stock areas to authorized personnel only. (Action: Embassy Algiers)

        OIG also noted that warehouse shelving rests on wooden platforms that could prevent the
flow of water from the sprinklers down through the shelving during a fire. In addition, stored
items are stacked within 3 feet of the sprinkler heads, which is contrary to Bureau of Overseas
Buildings Operations (OBO) guidance based on the International Fire Code standard. This
practice could reduce the effectiveness of the sprinkler system, placing personnel and stock at
greater risk to injury and damage from fire.

Recommendation 25: Embassy Algiers should replace wooden decking on warehouse racks
with metal waterfall decking to enhance fire suppression system capabilities. (Action: Embassy
Algiers)

Recommendation 26: Embassy Algiers should allow 3 feet of clearance between stored items
and the nearest sprinkler head to allow proper water coverage in case of fire. (Action: Embassy
Algiers)

        Although the embassy held a property auction in March 2011, the warehouse contains a
large quantity of unneeded property that is not stored safely. Items are stacked dangerously high
and have overflowed into the loading dock and driveway areas, which have become a dumping
ground for safes, garden furniture, windows, and other debris. This inattention to proper
inventory control and disposal practices has resulted in a property management problem as well
as a safety hazard.

Recommendation 27: Embassy Algiers should dispose of excess personal property. (Action:
Embassy Algiers)

Housing

        OIG questionnaire results reflected considerable dissatisfaction with the housing
program, most notably with the decision this summer to vacate a 24-unit apartment building with
only about 4 months’ notice. OBO based its decision to terminate the lease on the building’s
poor rating on a 2002 seismic engineering assessment. Although the move would have been
difficult under any circumstances, it was further complicated by what respondents cited as poor
communication and lack of transparency.

        OIG also heard allegations that the housing board was not following regulations when
making housing assignments. OIG was not able to substantiate these allegations partly because
housing board minutes were available only for the 6-month period prior to the inspection.
Although OIG heard conflicting accounts of how the housing assignments process works, it is
clear that a lack of transparency and written documentation contribute to broad customer
dissatisfaction with the program. Because housing is a major morale issue, particularly at
hardship posts, it is important that the newly installed interagency housing board comply with
                                         20
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

guidance on housing program administration in Foreign Affairs Manual regulation 15 FAM 212
to build confidence among employees that the assignments system is fair.

Recommendation 28: Embassy Algiers should implement standard operating procedures for the
interagency housing board to execute the housing assignments process in accordance with
Department of State regulations. (Action: Embassy Algiers)

        The general services office faces a challenge in leasing residential properties that meet
security and cost requirements, because mission policy requires that apartments be located in
buildings that are leased exclusively by embassy occupants. In the past, some leased apartments
remained unoccupied for extended periods, which incurred unnecessary costs. The embassy has
brought itself into compliance with regulations in 15 FAM 313.5 by divesting itself of
unoccupied apartments or assigning empty apartments to permanent residents. However, the
embassy must now contend with the difficulty of finding apartments in a tight rental market.

        According to an OBO assessment, Embassy Algiers lease costs are unreasonably high
relative to local market conditions. The eligible family member housing assistant who is fluent in
French has begun to renegotiate leases, with positive results. According to embassy data, the
renegotiation of six leases has yielded annual savings of almost $418,000. The remaining leases
are broadly similar in cost to newly negotiated leases and are thus likely to reflect local market
conditions.

Motor Vehicle Operations

         Motor pool services received high OIG and ICASS customer satisfaction scores, which is
unsurprising, as the embassy provides round-the-clock transportation for official and unofficial
trips at no cost. However, OIG identified deficiencies in motor pool program administration that
ranged from policy lapses to recordkeeping deficiencies to nonuse of electronic applications. See
the Management Controls section of this report for recommendations to regularize embassy
practices in this area.

       The embassy has not taken full advantage of the WebPASS Vehicle Registration and
Maintenance application, a tool that automates the process of vehicle fleet recordkeeping.
Instead, the embassy tracks fuel consumption, mileage reports, and maintenance scheduling
using spreadsheets. However, the impending deployment of the Department-wide fleet
management system will soon make both systems obsolete.

       Informal Recommendation 8: Embassy Algiers should automate its motor pool
       operations recordkeeping and reporting by deploying the Department of State’s fleet
       management system when it becomes available.

         Motor pool drivers consistently prepare the Daily Vehicle Use Record (Form OF-108) for
vehicles under the direct control of the motor pool supervisor, as required by 14 FAM 436.1. The
embassy does not prepare these records for vehicles used by the regional security office. As a
result, the embassy is unable to account for the use, mileage, fuel consumption, maintenance, and
condition of vehicles under the control of the regional security office. This lapse in procedure
represents an operational and management controls deficiency.
                                         21
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 29: Embassy Algiers should implement internal controls that require all
motor vehicle operators to complete the Daily Vehicle Use Record (Form OF-108). (Action:
Embassy Algiers)

Customs and Shipping

        Lengthy delays in clearing official and personal shipments through local customs
represent perhaps the most nagging and morale-killing issue at post. Customs clearance of
household effects and unaccompanied baggage commonly takes more than 40 days. At the time
of the OIG inspection in mid-October, one official shipment had been at port for almost 9
months. The current front office attaches high priority to the problem and is engaging host nation
officials and working with Washington contacts to resolve it.

Facilities Management

        OBO provides adequate attention and assistance to the mission through regular trip
reports, financial audits, and technical support visits. The new embassy compound, which was
occupied in 2007 ahead of schedule due to security concerns, has presented ongoing maintenance
issues. For example, decorative tiles have loosened and fallen from the façade. OBO is working
with the construction contractor on remediation. A second example is the building automation
system. According to a February 5, 2011, status report, the automation system is not operating
properly because some components are not functioning and others were omitted during the
original construction. In addition, the LE staff technician responsible for the system has neither
the training nor the equipment to operate and maintain it. Because the building automation
system also supports the fire suppression system, assuring full functionality of the former is
important to fire safety.

Recommendation 30: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Algiers, should bring the embassy’s building automation system up to fully functional
and maintainable status. (Action: OBO, in coordination with Embassy Algiers)

         As-built drawings provided by the new embassy compound construction contractor are
inaccurate and incomplete. Department guidance (07 State 136139) states that OBO will provide
as-built hard copy and electronic drawings of a completed new embassy compound. In addition
to being a standard deliverable upon completion of a new embassy, correct as-builts are essential
to facilitating continued maintenance and repair.

Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Algiers, should update the new embassy compound as-built drawings so that they are
accurate and complete. (Action: OBO, in coordination with Embassy Algiers)

        The facilities management unit is transitioning its workforce and organizational
capabilities to operate and maintain the complex mechanical systems of the new embassy
compound. It faces significant challenges in the recruitment and retention of technical personnel,
such as electricians and heating/ventilation/air conditioning technicians. During the OIG
inspection, two such technicians submitted their resignations, and three similar positions already
were vacant. The embassy also may have problems filling a senior position that will oversee the
                                         22
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

entire facilities management unit and provide continuity in a section that has seen much
personnel turmoil in the U.S. direct-hire position.

Recommendation 32: Embassy Algiers, in coordination with the Bureau of Human Resources,
should request an exception rate range as a means to recruit and retain facilities maintenance
engineering staff. (Action: Embassy Algiers, in coordination with DGHR)

Safety, Health, and Environmental Management

        Embassy Algiers’ safety, health, and environmental management program is
unsatisfactory. The hiring of a well-qualified LE staff member as assistant post occupational
safety and health officer offers possibilities for improvement, subject to adequate attention and
support by post leadership. An OIG inspector conducted a walkthrough of warehouse and vehicle
maintenance areas and noted numerous unsafe conditions and practices, including combustible
materials stored close to fuel pumps; an emergency eyewash station obstructed by a large
antifreeze container; an automobile supported by two jack stands with inadequate backup safety;
petroleum products and automobile batteries stored in the open; objects precariously stacked on
very high shelving; and inadequate personal protective equipment, such as steel-toed shoes, that
have remained on order since August 2011.

Recommendation 33: Embassy Algiers should implement a schedule of vehicle maintenance
shop inspections to identify and address safety, health, and fire hazards. (Action: Embassy
Algiers)

        According to the Bureau of Diplomatic Security’s Overseas Security Advisory Council,
Algeria has the fourth-highest vehicular accident rate in the world. Algeria also is on the
Department Motor Vehicle Safety Management program’s list of elevated risk countries, which
requires additional training for certain drivers. The Department uses the Smith System driver
training program to provide safe driver training. In August 2011 Embassy Algiers sent an
employee to be trained as an instructor. At the time of the inspection, the employee planned, but
had not yet begun, to initiate training.

Recommendation 34: Embassy Algiers should provide Smith System driver safety training to
all chauffeurs, including incidental drivers. (Action: Embassy Algiers)

         Embassy Algiers does not consistently hold safety, health, and environmental
management committee meetings as required by 15 FAM 933.2 a. Although records indicate an
improvement in the frequency of safety committee meetings in 2011, the embassy has held only
two meetings in the past 3 years. OIG attributes this record in part to lengthy staffing gaps in the
facilities management specialist position, a vacancy in the assistant post occupational safety and
health officer position, and lack of front office oversight.

Recommendation 35: Embassy Algiers should hold safety, health, and environmental
management committee meetings at least semiannually per Department of State regulations.
(Action: Embassy Algiers)


                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Information Management and Information Security

       The information management (IM) program meets the basic information processing and
communication needs of the mission but falls short of requirements in process and program
management. The office’s focus on meeting the mission’s day-to-day operational needs and
providing excellent customer service is reflected in high marks on OIG and ICASS surveys. This
emphasis on customer service, however, has left the staff with minimal time for developing and
implementing standardized processes and training.

        OIG reviewed the full range of IM programs—computer networks and pouch, telephone,
radio, and mail operations—and found deficiencies in the telephone and mail operations,
information security practices, and information technology (IT) contingency planning. In
addition to making recommendations to correct these deficiencies, OIG also counseled embassy
personnel on issues such as securing removable media, systems access control, systems
documentation, and physical security of IM spaces.

Information Security

        Embassy Algiers’ information systems security posture could be improved by regular
monitoring and information security training for the LE systems staff. The information systems
security officers are not performing systems reviews and monitoring consistently, which has
resulted in lapses in computer resources management. For example, OIG identified the use of a
generic default account to administer the mission’s BlackBerry server. Generic accounts create
problems with identification and accountability and weaken information security. Also
problematic is the absence of systems maintenance logs, which are critical for monitoring
systems changes and ensuring security. The IM staff implemented a process for logging systems
maintenance and immediately stopped the use of the generic account once OIG brought these
issues to their attention.

       Informal Recommendation 9: Embassy Algiers should implement standard operating
       procedures for the regular performance of information systems security officer duties.

        The LE system administration staff has not had the required information assurance
training for system administrators. As a result, the staff has minimal understanding of the
information security requirements for the Department’s IT assets. Increased information systems
security officer monitoring of information security practices and attention to staff training would
strengthen the staff’s familiarity with the Department’s information security needs. According to
5 FAM 845, the Department is required to provide computer security training to ensure the
confidentiality, integrity, and availability of its information. The Bureau of Diplomatic Security
funds and provides role-based information assurance training to personnel responsible for
administering and managing the Department’s computer systems.

Recommendation 36: Embassy Algiers should provide information assurance training to the
locally employed computer management staff. (Action: Embassy Algiers)




                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Information Technology Contingency Planning

         The embassy’s IT contingency plans for the unclassified and classified computer
networks are incomplete. The documents do not reflect the current information resources
supporting the networks. Further, they do not outline activities designed to recover and sustain
critical IT services following an emergency. The embassy is in the process of configuring a new
alternate command center to use as a contingency communication and operation center. The
conditions and viability of this center are discussed in the classified annex to this report.

        According to 12 FAM 622.3-2 a. and b., IM staff must complete and test IT contingency
plans. Although the IM staff does an exceptional job in meeting the mission’s day-to-day
operational needs, it has not adequately planned for contingency operations. Having current and
complete IT contingency plans provides the embassy with the necessary operational capability
for addressing emergency outages. In addition, the involvement of senior management is
essential to conduct operational needs analyses and develop contingency operation policies. The
IM staff cannot define the critical business operations without management’s support. Once
created, the plans have to be tested for consistency and viability. Testing the plans provides a
training opportunity for emergency response personnel and familiarizes staff with the required
emergency operations tasks. OIG also identified this deficiency in its 2008 inspection report.

Recommendation 37: Embassy Algiers should complete and test the information technology
contingency plans for the classified and unclassified networks and implement a procedure for
periodic updates as systems environments and resources change. (Action: Embassy Algiers)

        The IM office needs to coordinate IT contingency plans with the mission’s emergency
action plan. The IT information in the emergency action plan is outdated and is not coordinated
with the rest of the elements of the plan. Per 12 FAM 622.3-2 e., the embassy must ensure that
its IT contingency plans are consistent with its emergency action plan.

Recommendation 38: Embassy Algiers should align the information technology contingency
plans with the embassy’s emergency action plan and update the information technology section
of the emergency action plan. (Action: Embassy Algiers)

Customer Service

        Embassy Algiers does not consistently use available help desk software to manage IT
service requests. Customers submit requests by phone, email, and in person, but rarely by
eServices, the Department-provided Web application designed to track a wide range of support
requests. The staff does not always enter phone, email, and in-person requests into eServices due
to lack of time. By not tracking service calls, the mission cannot effectively analyze its workload
and make informed decisions about resource allocation and LE staff member training.

Recommendation 39: Embassy Algiers should implement a standardized procedure to manage
information technology service requests. (Action: Embassy Algiers)




                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Telephone Operations

        Work responsibilities for telephone operations are not adequately distributed to achieve
separation of duties. Telephone operations encompass the embassy and residential telephone
lines, cell phones, BlackBerries, and residential Internet services. One LE staff member performs
all technical management aspects of these services with minimal U.S. direct-hire employee
oversight. Although American employees were closely monitoring the work done on the
embassy’s telephone lines, IM staff members were not maintaining access and maintenance logs.
The section corrected this deficiency during the inspection.

        The mission is dependent on one LE staff member for land and mobile communication
needs. This individual is the only one trained to configure and assign accounts to the mission’s
BlackBerry servers. This dependence creates security and business continuity vulnerabilities.
The IM staff needs to be cross-trained on BlackBerry administration to allow for separation of
duties and adequate support.

        This same employee is also responsible for installing and configuring the residential
wireless routers and for managing wireless routers passwords, including those located in the
Ambassador’s and deputy chief of mission’s residences. Although users are advised to reset
passwords after the initial setup, IM management was unable to confirm the status of the
Ambassador’s and deputy chief of mission’s wireless router passwords. IM management
immediately reset the passwords for both residences and secured the passwords during the
inspection. Management is also preparing to send out a notice to educate customers on
residential wireless password management.

       Informal Recommendation 10: Embassy Algiers should update the roles and
       responsibilities of the locally employed telephone staff to facilitate separation of duties.

        An embassy telephone operator processes the bills for and payment of personal telephone
and Internet services, including accepting cash from employees to pay bills. These duties are not
included in her position description. Managing these bills is time consuming and distracts from
the completion of her duties. Department regulation 3 FAH-2 H- 441.1 indicates that “a position
description is an official statement of the duties, responsibilities, and qualification requirements
of a position.” If the telephone operator continues to process these bills, her position description
should reflect this duty.

       Informal Recommendation 11: Embassy Algiers should update the position description
       of the telephone operator who processes personal telephone bills to reflect actual job
       responsibilities.

       Payment of employees’ personal Internet and residential phone bills is not a government
responsibility. (b) (5)




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 40: (b) (5)



Mail Operations

         Respondents to OIG questionnaires gave low scores to embassy mail services because of
strict limits on receipt of personal mail through the diplomatic pouch. The embassy plans to
replace the current pouch personal mail service with a diplomatic post office. However, the
embassy has not completed the necessary steps, such as obtaining written host nation approval,
requesting a U.S. ZIP code, and providing training for mail clerks.

        Although embassy management is waiting for formal host nation approval, there are
other planning steps that it can take in the meantime. For example, the embassy does not have a
written plan for the diplomatic post office implementation. Developing a plan would allow post
to identify the required steps in advance and meet objectives on the targeted schedule.

Recommendation 41: Embassy Algiers should develop a plan for the diplomatic post office
implementation that covers at a minimum the required implementation steps and training needs.
(Action: Embassy Algiers)




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

        The community liaison office (CLO) staff consists of two part-time CLO coordinators
and an LE staff assistant. One co-CLO position was vacant at the time of the inspection. The
ICASS council approved an additional eligible family member assistant position, but it has not
been filled. The CLO coordinator has attended training and is included in the country team. CLO
trips and events are well advertised and participation is good. (b) (5)




Recommendation 42: Embassy Algiers should deposit all community liaison office funds with
the American Embassy Employee Association. (Action: Embassy Algiers)

Employee Association

       The American Embassy Employee Association operates a small commissary that is open
2 hours per week and is staffed by association board members on a volunteer basis. The
association has no paid employees. Although the volume of business does not justify a full-time
employee, the association would benefit from hiring a part-time employee.

       Informal Recommendation 12: Embassy Algiers should hire a part-time association
       manager to assist with the management of the American Embassy Employee Association.

Medical Unit

         At the time of the inspection, a temporary duty regional medical officer was covering a
gap caused by the curtailment of the Foreign Service health practitioner. The replacement, also a
first-tour employee, is scheduled to arrive in December. A local doctor and an eligible family
member medical nurse complete the unit staff.

        The medical unit and the regional medical technician from Cairo perform periodic food
and sanitation inspections of the embassy food service operation. The most recent report in June
2011 uncovered significant critical deficiencies in the embassy’s cafeteria, which is operated
under a concession agreement between the embassy and the service provider. The general
services office oversees implementation of the agreement, including requirements that the
concessionaire properly adhere to health and food safety standards. Inspector observations
determined that the embassy has yet to implement many of the recommendations from the June
inspection report.

Recommendation 43: Embassy Algiers should comply with the requirements of the 2008
licensing agreement with the cafeteria contractor that relate to the maintenance of professional
health and food safety standards. (Action: Embassy Algiers)


                                          28
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        Management controls at Embassy Algiers are weak. The most recent chief of mission
management controls statement of assurance, signed on July 12, 2011, did not identify
weaknesses in internal controls. However, as noted in this report, the inspection team found
significant internal controls vulnerabilities in management operations.

Management Section

        Separation of duties in the supply chain management process is insufficient. Despite the
designation of the financial management office as the billing office on purchase orders, invoices
are routed to the procurement unit, which also dispenses payment checks to vendors. The
procurement section therefore routinely orders goods, receives invoices, and makes payments,
thereby creating a vulnerability to fraud.

Recommendation 44: Embassy Algiers should designate the financial management office as the
billing office for all invoices. (Action: Embassy Algiers)

Recommendation 45: Embassy Algiers should prohibit its procurement unit from distributing
vendor payment checks and implement a payment system that provides adequate separation of
duties in the supply chain management process. (Action: Embassy Algiers)

        The Integrated Logistics Management System allows participants in the supply chain
process to perform their individual job tasks, such as procurement, receiving, and property
management. Embassy Algiers is not taking full advantage of the system’s capabilities for
sharing information and improving internal controls, most notably between procurement and
receiving. Changes in systems permissions to allow key LE staff access to additional modules
would improve controls and operational efficiency.

Recommendation 46: Embassy Algiers should provide general services and financial
management personnel access to Integrated Logistics Management System modules that are
related to the performance of their duties. (Action: Embassy Algiers)

        OIG’s review of the embassy’s bulk fuel program found internal controls shortcomings.
There is no clearly defined process for replenishing the four in-ground fuel tanks. Deliveries
normally are made during nonduty hours due to local traffic regulations. The duty driver is
responsible for overseeing the procedure, including verifying the tank levels at the monitoring
station, monitoring fuel dispensing, matching the delivery slip quantity with the monitoring
station readout after pumping, and processing the delivery slip for payment. The drivers’
understanding of the process and necessary internal controls responsibilities is spotty. (b)
                                                                                      (5)


Moreover, there is no before-and-after check of pump readings, either monthly to reconcile with
log sheets or daily to reconcile non-duty-hour dispensing. The lack of oversight of fuel
procedures poses a vulnerability to fraud and theft.


                                         29
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 47: Embassy Algiers should implement procedures for fuel replenishment
and dispensing that include adequate internal controls to prevent fraud and theft. (Action:
Embassy Algiers)

Motor Vehicle Policy

       Embassy Algiers’ vehicle policy memorandum (Mission Policy 2009-1007, dated
October 14, 2009) is outdated and does not comply with 14 FAM 430. For example, it is not
reviewed at least annually and does not refer to or incorporate Department of Motor Vehicle
Safety Management program standards per 14 FAM 432.5. It also does not require employee
payment for other authorized use of official vehicles and allows use of official government
vehicles for personal use that is inconsistent with the standards in 14 FAM 433.4 a. (2). The
motor pool supervisor did not have hard statistics but estimated that 70 percent of transportation
by government-owned vehicles during nonduty hours is for personal use. Employees are
authorized shipment of privately owned vehicles to post and normally should not use official
government vehicles for personal use except under the limited conditions allowed by regulations.

Recommendation 48: Embassy Algiers should publish a vehicle use policy that incorporates the
Department of State’s Motor Vehicle Safety Management Program, method for collecting
appropriate charges for other authorized use of official vehicles, and chief of mission approval of
other authorized use of official vehicles. (Action: Embassy Algiers)




                                          30
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Algiers should abolish the Ambassador’s Council and
implement a plan to establish a local employee association. (Action: Embassy Algiers)

Recommendation 2: Embassy Algiers should implement a mentoring and professional
development program for entry-level officers and specialists. (Action: Embassy Algiers)

Recommendation 3: Embassy Algiers should define portfolio responsibilities in the
political/economic section for each American and locally employed staff member and include
these responsibilities in their work requirements statements. (Action: Embassy Algiers)

Recommendation 4: Embassy Algiers should document the need for a commercial specialist
position in the economic section in its next strategic planning request. (Action: Embassy Algiers)

Recommendation 5: Embassy Algiers should implement a plan to assign specific
responsibilities to officers who nominate Algerians for the International Visitor Leadership
Program. (Action: Embassy Algiers)

Recommendation 6: The Bureau of Educational and Cultural Affairs, in coordination with
Embassy Algiers, should schedule a regional educational advising coordinator visit to Algeria.
(Action: ECA, in coordination with Embassy Algiers)

Recommendation 7: Embassy Algiers should implement procedures for the accurate and
complete documentation of required information in public grants files. (Action: Embassy
Algiers)

Recommendation 8: Embassy Algiers, in coordination with the Bureau of Near Eastern
Affairs, should obtain and use contact management software that meets the needs of the public
affairs section. (Action: Embassy Algiers, in coordination with NEA)

Recommendation 9: (b) (5)


Recommendation 10: Embassy Algiers should update nonimmigrant visa procedures so that
consular staff collects the machine readable visa fee before processing a visa case. (Action:
Embassy Algiers)

Recommendation 11: Embassy Algiers should cease the practice of providing a detailed list of
consular services to the local bank. (Action: Embassy Algiers)

Recommendation 12: Embassy Algiers should distribute locally employed staff paychecks on
the same day they are received. (Action: Embassy Algiers)

Recommendation 13: Embassy Algiers should implement a policy to make payments by
electronic funds transfer whenever possible. (Action: Embassy Algiers)



                                         31
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 14: Embassy Algiers should schedule a team-building exercise for its
human resources staff. (Action: Embassy Algiers)

Recommendation 15: Embassy Algiers should translate the human resources handbook for
locally employed staff; the local compensation, leave, and benefits plan; and other hiring
guidance into French and make them available to all local employees. (Action: Embassy Algiers)

Recommendation 16: Embassy Algiers should implement a plan to brief all locally employed
staff on the hiring policy as described in the human resources handbook. (Action: Embassy
Algiers)

Recommendation 17: Embassy Algiers should complete and issue the family member
appointment handbook. (Action: Embassy Algiers)

Recommendation 18: Embassy Algiers should conduct a group meeting with all eligible
family members to discuss the hiring and employment process as it pertains to them. (Action:
Embassy Algiers)

Recommendation 19: Embassy Algiers, in coordination with the Bureau of European and
Eurasian Affairs, should request that the Frankfurt Regional Support Center begin conducting
reviews of locally employed staff position classifications and descriptions. (Action: Embassy
Algiers, in coordination with EUR)

Recommendation 20: Embassy Algiers should implement a consolidated training plan for its
locally employed staff. (Action: Embassy Algiers)

Recommendation 21: The Office of Civil Rights should clarify its instructions concerning
Equal Employment Opportunity training procedures for locally employed staff. (Action: S/OCR)

Recommendation 22: Embassy Algiers should assign direct responsibilities for components of
the general services portfolio to the supervisory general services officer and the assistant general
services officer and incorporate these responsibilities into their work requirements statements.
(Action: Embassy Algiers)

Recommendation 23: Embassy Algiers should update its contracts and contract files so that
they are well organized and contain all documentation and clauses required by the Federal
Acquisition Regulation and Department of State regulations. (Action: Embassy Algiers)

Recommendation 24: Embassy Algiers should alter the configuration of the warehouse to
limit access to the receiving and stock areas to authorized personnel only. (Action: Embassy
Algiers)

Recommendation 25: Embassy Algiers should replace wooden decking on warehouse racks
with metal waterfall decking to enhance fire suppression system capabilities. (Action: Embassy
Algiers)

Recommendation 26: Embassy Algiers should allow 3 feet of clearance between stored items
and the nearest sprinkler head to allow proper water coverage in case of fire. (Action: Embassy
Algiers)
                                                32
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 27: Embassy Algiers should dispose of excess personal property. (Action:
Embassy Algiers)

Recommendation 28: Embassy Algiers should implement standard operating procedures for
the interagency housing board to execute the housing assignments process in accordance with
Department of State regulations. (Action: Embassy Algiers)

Recommendation 29: Embassy Algiers should implement internal controls that require all
motor vehicle operators to complete the Daily Vehicle Use Record (Form OF-108). (Action:
Embassy Algiers)

Recommendation 30: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Algiers, should bring the embassy’s building automation system up to fully functional
and maintainable status. (Action: OBO, in coordination with Embassy Algiers)

Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Algiers, should update the new embassy compound as-built drawings so that they are
accurate and complete. (Action: OBO, in coordination with Embassy Algiers)

Recommendation 32: Embassy Algiers, in coordination with the Bureau of Human Resources,
should request an exception rate range as a means to recruit and retain facilities maintenance
engineering staff. (Action: Embassy Algiers, in coordination with DGHR)

Recommendation 33: Embassy Algiers should implement a schedule of vehicle maintenance
shop inspections to identify and address safety, health, and fire hazards. (Action: Embassy
Algiers)

Recommendation 34: Embassy Algiers should provide Smith System driver safety training to
all chauffeurs, including incidental drivers. (Action: Embassy Algiers)

Recommendation 35: Embassy Algiers should hold safety, health, and environmental
management committee meetings at least semiannually per Department of State regulations.
(Action: Embassy Algiers)

Recommendation 36: Embassy Algiers should provide information assurance training to the
locally employed computer management staff. (Action: Embassy Algiers)

Recommendation 37: Embassy Algiers should complete and test the information technology
contingency plans for the classified and unclassified networks and implement a procedure for
periodic updates as systems environments and resources change. (Action: Embassy Algiers)

Recommendation 38: Embassy Algiers should align the information technology contingency
plans with the embassy’s emergency action plan and update the information technology section
of the emergency action plan. (Action: Embassy Algiers)

Recommendation 39: Embassy Algiers should implement a standardized procedure to manage
information technology service requests. (Action: Embassy Algiers)


                                        33
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 40: (b) (5)



Recommendation 41: Embassy Algiers should develop a plan for the diplomatic post office
implementation that covers at a minimum the required implementation steps and training needs.
(Action: Embassy Algiers)

Recommendation 42: Embassy Algiers should deposit all community liaison office funds with
the American Embassy Employee Association. (Action: Embassy Algiers)

Recommendation 43: Embassy Algiers should comply with the requirements of the 2008
licensing agreement with the cafeteria contractor that relate to the maintenance of professional
health and food safety standards. (Action: Embassy Algiers)

Recommendation 44: Embassy Algiers should designate the financial management office as
the billing office for all invoices. (Action: Embassy Algiers)

Recommendation 45: Embassy Algiers should prohibit its procurement unit from distributing
vendor payment checks and implement a payment system that provides adequate separation of
duties in the supply chain management process. (Action: Embassy Algiers)

Recommendation 46: Embassy Algiers should provide general services and financial
management personnel access to Integrated Logistics Management System modules that are
related to the performance of their duties. (Action: Embassy Algiers)

Recommendation 47: Embassy Algiers should implement procedures for fuel replenishment
and dispensing that include adequate internal controls to prevent fraud and theft. (Action:
Embassy Algiers)

Recommendation 48: Embassy Algiers should publish a vehicle use policy that incorporates
the Department of State’s Motor Vehicle Safety Management Program, method for collecting
appropriate charges for other authorized use of official vehicles, and chief of mission approval of
other authorized use of official vehicles. (Action: Embassy Algiers)




                                          34
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Algiers should eliminate political/economic section
subscriptions that can be replaced with online resources.

Informal Recommendation 2: Embassy Algiers should streamline production procedures and
the scope of coverage of its daily media digest product.

Informal Recommendation 3: Embassy Algiers should alternate appointment days for
nonimmigrant and immigrant visas.

Informal Recommendation 4: Embassy Algiers should include all relevant agencies on its
International Cooperative Administrative Support Services council and budget committee.

Informal Recommendation 5: Embassy Algiers should complete the required annual
International Cooperative Administrative Support Services service provider performance
assessment.

Informal Recommendation 6: Embassy Algiers should broaden its locally employed staff
orientation program to include discussion of overall mission operations.

Informal Recommendation 7: Embassy Algiers should establish a schedule of regular
meetings between its Equal Employment Opportunity counselor and locally employed liaisons.

Informal Recommendation 8: Embassy Algiers should automate its motor pool operations
recordkeeping and reporting by deploying the Department of State’s fleet management system
when it becomes available.

Informal Recommendation 9: Embassy Algiers should implement standard operating
procedures for the regular performance of information systems security officer duties.

Informal Recommendation 10: Embassy Algiers should update the roles and responsibilities
of the locally employed telephone staff to facilitate separation of duties.

Informal Recommendation 11: Embassy Algiers should update the position description of the
telephone operator who processes personal telephone bills to reflect actual job responsibilities.

Informal Recommendation 12: Embassy Algiers should hire a part-time association manager
to assist with the management of the American Embassy Employee Association.




                                         35
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                         Name       Arrival Date
Ambassador                                     Henry S. Ensher              7/11
Deputy Chief of Mission                     Elizabeth M. Aubin              9/11
Chiefs of Sections:
  Consular                                              Vacant
  Management                                   AnnaMary Portz             10/10
  Political/Economic                                    Vacant
  Public Affairs                            Tashawna S. Bethea              7/11
  Regional Security                                     Vacant
Other Agencies:
  Foreign Agricultural Service                  Kurt F. Seifarth          10/10
  Department of Defense                    Col. Keith L. Phillips          1/11
   Department of Justice - ICITAP               Gary A. Bennett           11/10
   Federal Bureau of Investigation                       Vacant
   Treasury                                      Robert Demler




                                        36
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CLO             Community liaison office
Department      Department of State
EEO             Equal Employment Opportunity
ELO             Entry-level officer
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
ICASS           International Cooperative Administrative Support Services
IM              Information management
IT              Information technology
LE              Locally employed (staff)
MEPI            Middle East Partnership Initiative
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
PAS             Public affairs section
PD              Public diplomacy




                            37
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
